2311 Douglas Street
Omaha, Nebraska 68102-1214

r1_,_OCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-413
JOZLYN THOMAS,
Petitioner,
v.
JAMES SCOTT BLEVINS,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1766 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

athaeb--kaiiAL,

GENERAL NOTARY-State of Nebraska
RENEE GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

40310

